No. 20-1200

In the Supreme Court of the United States
COMMON GROUND HEALTHCARE COOPERATIVE,
ON BEHALF OF ITSELF AND ALL OTHERS
SIMILARLY SITUATED, PETITIONER

v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

MEMORANDUM FOR THE UNITED STATES

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-1200
COMMON GROUND HEALTHCARE COOPERATIVE,
ON BEHALF OF ITSELF AND ALL OTHERS
SIMILARLY SITUATED, PETITIONER

v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

MEMORANDUM FOR THE UNITED STATES

Petitioner seeks review (Pet. 10-31) of the court of
appeals’ judgment applying to this case its previous
holding in Community Health Choice, Inc. v. United
States, 970 F.3d 1364 (Fed. Cir. 2020), petition and conditional cross-petition for cert. pending, No. 20-1162
(filed Feb. 19, 2021), and No. 20-1432 (filed Apr. 9, 2021),
that an insurer bringing suit for money damages
against the United States under the Tucker Act,
28 U.S.C. 1491, for certain subsidies provided for under
the Patient Protection and Affordable Care Act (ACA),
Pub. L. No. 111-148, 124 Stat. 119, must have its damages offset to account for the insurer’s own successful
mitigation efforts. As we explain in our brief in opposition to the pending petition for a writ of certiorari to
review the court of appeals’ decision in Community
Health Choice, the court’s holding in that case is correct
(1)

2
and does not warrant further review. 20-1162 Br. in
Opp. 15-29. Because the proper disposition of the petition for a writ of certiorari in this case may be affected
by the disposition of the petition in No. 20-1162, however, the petition in this case should be held pending
disposition of the petition in that case, and then disposed of as the Court determines to be appropriate.
1. Section 1402 of the ACA requires insurers to reduce
cost sharing (such as deductibles and copayments) for certain individuals who purchase “silver” plans through an
ACA Exchange. 124 Stat. 220 (42 U.S.C. 18071). “[I]n order to reduce the premiums,” 42 U.S.C. 18082(a)(3), the
ACA also directs the government to make advance payments to insurers equal to the value of such cost-sharing
reductions (CSR payments), 42 U.S.C. 18082(c)(3).
In October 2017, the government ceased making CSR
payments to insurers after determining that it lacked
any appropriation to pay them. Pet. App. 11a-12a. For
2018 and subsequent years, many insurers offset the absence of CSR payments by increasing their silver-plan
premiums. Id. at 12a-14a. By operation of the ACA’s
formula, increasing silver-plan premiums also resulted in
a substantial increase in premium tax credits that the
government pays to insurers on behalf of lower-income
individuals. See ibid.; 26 U.S.C. 36B(b)(2)(B).
2. a. Petitioner is an insurer that offers health plans
on Wisconsin’s ACA Exchange. Pet. App. 16a. It
brought this action, on behalf of itself and a class of
other similarly situated insurers, against the United
States in the Court of Federal Claims under the Tucker
Act, 28 U.S.C. 1491, alleging (as relevant) that the government is liable on an ongoing basis for the full value
of CSR payments not made and seeking money damages for the years 2017 and 2018. Pet. App. 16a-17a.

3
The court certified a class, id. at 17a, and subsequently
granted summary judgment to the class, id. at 18a-36a.
b. The government appealed. At the government’s request, however, the court of appeals stayed further proceedings in the appeal in this case pending its disposition
of several other pending, previously argued cases that involve claims for unpaid CSR payments and that present
the same issues. C.A. Doc. 12 (Jan. 28, 2020).
The court of appeals subsequently decided those
other pending cases in two opinions issued the same
day, captioned as Sanford Health Plan v. United States,
969 F.3d 1370 (Fed. Cir. 2020), and Community Health
Choice, supra. In Sanford, the court of appeals held
that the government was liable to insurers for unpaid
CSR payments and that insurers could enforce that liability in Tucker Act suits. 969 F.3d at 1373-1383. In
Community Health Choice, however, the court held
that insurers’ damages must be offset to account for the
additional premium tax credits that they received for
2018, as a “direct result” of increasing their silver-plan
premiums. 970 F.3d at 1377; see id. at 1372-1381.
The court of appeals in Community Health Choice explained that, under this Court’s and its own precedent,
where a statute like Section 1402 imposes an obligation
but “does not provide its own remedies,” courts look to
traditional contract-law principles to determine the
scope of an appropriate damages remedy. 970 F.3d 1374.
Among those principles, the court of appeals observed, is
the well-settled rule that, where a plaintiff mitigates its
own damages, “there must be a reduction in damages
equal to the amount of benefit that resulted from the mitigation efforts that the non-breaching party in fact undertook.” Id. at 1376; see id. at 1374-1377.

4
Applying that rule, the court of appeals in Community Health Choice determined that the plaintiffs had
“mitigated the effects of the government’s breach by applying for increased premiums and, as a result, received
additional premium tax credits in 2018 as a direct result
of the government’s nonpayment of [CSR] reimbursements.” 970 F.3d at 1377. The court concluded that the
plaintiffs’ damages had to be reduced accordingly. Id. at
1377-1379. It remanded to the trial court to determine
the amount of the offset. Id. at 1379-1381.
c. Following the court of appeals’ decisions in Sanford
and Community Health Choice, petitioner moved unopposed to lift the stay in this appeal and for entry of judgment “consistent with Community Health Choice.” Pet.
App. 1a-2a. The court granted the motion and entered
judgment accordingly, acknowledging that the parties
had each reserved their rights to challenge the substance
of the court’s decision. Id. at 1a-2a & n.*. The court denied petitioner’s petition for rehearing. Id. at 37a-38a.
3. Petitioner seeks review (Pet. 2-4, 10-31) of the court
of appeals’ judgment applying its holding in Community
Health Choice with respect to mitigation of damages to
the claims in this case. For the reasons set forth in our
brief in opposition to the petition for a writ of certiorari
seeking review of the court’s decision in Community
Health Choice (No. 20-1162), the court’s decision in that
case is correct and does not warrant further review. See
20-1162 Br. in Opp. 15-29. The court in Community
Health Choice properly applied settled precedent and traditional tenets of contract law in determining that an insurer that in fact mitigated its damages for unpaid CSR
payments must have its damages award offset accordingly. See id. at 16-20. Petitioner’s contentions (Pet. 3-4,
10-26) that the court of appeals’ determination conflicts

5
with this Court’s precedent and with traditional mitigation
principles lack merit. See 20-1162 Br. in Opp. 21-29. 1
Because the petition for a writ of certiorari in this
case, however, seeks review of the same question and in
effect challenges the same holding of the court of appeals as the pending petition in No. 20-1162, the Court’s
disposition of that petition may affect the appropriate
disposition of the petition here. The petition in this case
should therefore be held pending the disposition of the
petition for a writ of certiorari in No. 20-1162, and then
disposed of as appropriate. 2
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

APRIL 2021
As we explain in our conditional cross-petition for a writ of certiorari to review the court of appeals’ decision in Community Health
Choice (No. 20-1432), if the Court were to grant review of the court of
appeals’ damages holding in that case (No. 20-1162), it should also
grant review of the court of appeals’ antecedent holding—applying its
decision in Sanford, supra—that the government can be liable for unpaid CSR payments in a Tucker Act suit seeking money damages.
See 20-1432 Conditional Cross-Pet. 13-21. Alternatively, we explain
(id. at 21-22), the Court should hold the conditional cross-petition in
No. 20-1432 pending the Court’s decision on the merits in No. 20-1162.
The court’s liability ruling in Sanford expressly relied in part on its
damages determination in Community Health Choice. Id. at 13,
15-16. Although the liability ruling does not independently warrant
review, if the court’s damages ruling were set aside, its liability ruling
would then be called into doubt and take on greater practical significance, and it would warrant review. Id. at 16-21. For the same reasons, the government is submitting today a conditional cross-petition
for a writ of certiorari seeking the same relief in this case.
2
The government waives any further response to the petition for
a writ of certiorari in this case unless this Court requests otherwise.
1

